  3_
  USDA
                         United States Department of Agriculture
                                Office of Inspector General
                                  Washington, D.C. 20250


  MAR 18 2013


The Honorable Michael E. Horowitz
Inspector General
U.S. Department of Justice
950 Pennsylvania Avenue NW., Suite 4712
Washington, D.C. 20530

Subject: System Review Report of the U.S. Department of Justice's Office ofInspector General
         Audit Organization

Dear Mr. Horowitz:

Attached is the final System Review Report of the U.S. Department of Justice's Office of
Inspector General audit organization, conducted in accordance with Government Auditing
Standards and the Council of the Inspectors General on Integrity and Efficiency guidelines.
Your organization has received a peer review rating of pass.

We discussed the draft System Review Report with members of your staff at an exit conference
on February 27, 2013. Your staff considered the report to be accurate and elected not to provide
written comments. We thank you and your staff for your assistance and cooperation during the
conduct of the review.

Sincerely,



 ~<dJG
Phyllis K. Fong
Inspector General

Attachment
                         United States Department of Agriculture
                                Office of Inspector General
                                 Washington, D.C. 20250

                               SYSTEM REVIEW REPORT

  MAR 18 2013


The Honorable Michael E. Horowitz
Inspector Oeneral
U.S. Depaltment of Justice
950 Pennsylvania Avenue NW., Suite 4712
Washington, D.C. 20530

Dear Mr. Horowitz:

We have reviewed the system of quality control for the audit organization of the U.S.
Depaltment of Justice, Office of Inspector Oeneral (USDOJ orO) in effect for fiscal year
(FY) 2012. A system of quality control encompasses USDOJ OIG's organizational structure
and the policies adopted and procedures established to provide it with reasonable assurance of
conforming to Government Auditing Standards. The elements of quality control are described
in Government Auditing Standards. USDOJ oro is responsible for designing a system of
quality control and complying with it to provide USDOJ oro with reasonable assurance of
performing and reporting in conformity with applicable professional standards in all material
respects. Our responsibility is to express an opinion on the design of the system of quality
control and USDOJ oro's compliance therewith, based on our review.

Our review was conducted in accordance with Government Auditing Standards and guidelines
established by the Council of the Inspectors Oeneral on Integrity and Efficiency (ClOlE).
During our review, we interviewed USDOJ oro personnel and obtained an understanding of
the nature ofUSDOJ orO's audit organization and the design ofUSDOJ oro's system of
quality control sufficient to assess the risks implicit in its audit function. Based on our
assessments, we selected engagements and administrative files to test for conformity with
professional standards and compliance with USDOJ oro's system of quality control. The
engagements selected represented a reasonable cross-section of USDOJ OIO's audit
organization, with emphasis on higher-risk engagements. Prior to concluding the review, we
reassessed the adequacy of the scope of the peer review procedures and met with USDOJ 010
management to discuss the results of our review. We believe that the procedures we
performed provide a reasonable basis for our opinion.

In perfOlming our review, we obtained an understanding of the system of quality control for
USDOJ oro's audit organization. In addition, we tested compliance with USDOJ oro's quality
control policies and procedures to the extent we considered appropriate. These tests covered
The Honorable Michael E. Horowitz                                                                 2


the application ofUSDOJ OIG's policies and procedures on selected engagements. Our review
was based on selected tests; therefore, it would not necessarily detect all weaknesses in the
system of quality control or all instances of noncompliance with it.

There are inherent limitations in the effectiveness of any system of quality control, and,
therefore, noncompliance with the system of quality control may occur and not be detected.
Projection of any evaluation of a system of quality control to future periods is subject to the
risk that the system of quality control may become inadequate because of changes in
conditions, or because the degree of compliance with the policies or procedures may
deteriorate.

The enclosure to this report identifies the scope and methodology of our review, including the
engagements that we sampled.

In our opinion, the system of quality control for the audit organization of USDOJ OIG in
effect for FY 2012 has been suitably designed and complied with to provide USDOJ OIG with
reasonable assurance of performing and reporting in conformity with applicable professional
standards in all material respects. Federal audit organizations can receive a rating of pass,
pass with deficiencies, orlail. USDOJ OIG has received a peer review rating ofpass.

In addition to reviewing USDOJ OIO's system of quality control to ensure adherence with
Government Auditing Standards, we applied certain limited procedures in accordance with
guidance established by the Council ofInspectors General for Integrity and Efficiency related to
USDOJ OIO's monitoring of engagements performed by Independent Public Accountants
(IP As) under contract, where the IPA served as the principal auditor. It should be noted that
monitoring of engagements performed by IPAs is not an audit and, therefore, is not subject to
the requirements of Government Auditing Standards. The purpose of our limited procedures
was to determine whether USDOJ OIG had controls to ensure IP As performed contracted
work in accordance with professional standards. However, our objective was not to express
an opinion and, accordingly, we do not express an opinion on USDOJ OIO's monitoring of
work performed by IP As.

Sincerely,




Phyllis K. Fong 

Inspector General 


 Enclosure
                                                                               Enclosure

                             SCOPE AND METHODOLOGY


We tested compliance with the U.S. Department of Justice, Office of Inspector General's
(USDOJ OIG) audit organization's system of quality control to the extent we considered
appropriate. These tests included a review of 12 of 88 audit and attestation reports issued
during fiscal year (FY) 2012, and the corresponding semiannual reporting periods (March 31,
2012, and September 30, 2012). We also reviewed the internal quality control reviews
performed by USDOJ OIG.

For the reports, we reviewed USDOJ OIG's monitoring of two engagements performed by
Independent Public Accountants (IPAs), where the IPA served as the principal auditor during
FY 2012. During the period, USDOJ contracted for the audit of its agencies' FY 2012
financial statements. USDOJ OIG also contracted for certain other engagements that were to
be performed in accordance with Government Auditing Standards.

We contacted staff in Headquarters and, when necessary, regional audit offices in Atlanta,
Georgia; Chicago, Illinois; Denver, Colorado; Philadelphia, Pennsylvania; San Francisco,
California; and Washington, D.C. We also contacted the Computer Security and Information
Technology Audit Office. We visited the San Francisco Regional Office to conduct our review
of a classified audit, and we visited the Financial Statement Audit Office to review
documentation not available electronically. USDOJ OIG provided all other audit
documentation electronically for the audits we reviewed. Any additional audit documentation
needed was provided via electronic mail by Headquarters and regional offices.

Reviewed Engagements Performed by USDOJ OIG

    Report No.          Issue Date      Title
   GR-40-12-001           3/29/12       Grant - Virgin Islands
       12-02              12/8/11       DEA Resource Management
       12-04              3/30112       OPDAT/ICITAP
       12-01             10/13/11       DOJ Administrative Suspension and Debmment
       12-20              3/13/12       BOP Residential Reentry Ctrs.
       12-10              1118112       IWN Follow-on
   GR-70-12-002          11129/11       NY Agency Community Affairs
       12-21              3114/12       FBI Aviation Operations
   GR-30-12-004           8/28/12       Grant - Baltimore Dept. of Health
   GR-30-12-03            7/20112       Grant - Experience Corps, D.C.

Reviewed Monitoring Files ofUSDOJ OIG for Contracted Engagements

       Report No.        Issue Date     Title
         12-31             7/23/12      FY 2011 FISMA BOP Information Security PrograJ.n
         12-03             12/8/11      FY 2011 AFS of the DOJ
